BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing DNC
Respondents' Brief in 19-1257, Mark Brnovich,
Attorney General of Arizona, et al. v. Democratic
National Committee, et al.,
19-1258, Arizona
Republican Party, et al. v. Democratic National
Committee, et al., were sent via Next Day Service to
the U.S. Supreme Court, Next Day and e-mail service
to the following parties listed below, this 13th day of
January, 2021:
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
J oe.Kanefield@azag.gov

Counsel for State Petitioners
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

Counsel for Petitioners
Arizona Republican Party, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6000
JAmunson@jenner.com
Counsel for Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Marc E. Elias
Counsel of Record
Bruce V. Spiva
Elisabeth C. Frost
Amanda R. Callais
Lalitha D. Madduri
Alexander G. Tischenko
Perkins Coie LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 654-6200
MElias@perkinscoie.com
Sarah R. Gonski
Perkins Coie LLP
2901 N. Central Ave
Suite 2000
Phoenix, AZ 85012
(602) 351-8000

Lauren P. Ruben
Perkins Coie LLP
1900 Sixteenth Street
Suite 1400
Denver, CO 80202
(303) 291-2385

Counsel for Democratic National Committee, et al.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 13, 2021.

U

\_)

Donna J. Wolf
Becker Gallagher Legal; : .: hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

